                         D EPARTMENT OF H EALTH AND H UMAJ.~ S ER VICES


                   OFFICE OF INSPECTOR GENERAL
                                       1\.r\SH INGTOl\, DC: 2020 1




                                              MAY 2 9 2014
TO: 	         Marilyn Tavenner
              Administrator
              Centers for Medicare & Medicaid Services

                   /S/
FROM:         Brian P. Ritchie
              Acting Deputy Inspector General
               for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: State Requirements for Conducting Background Checks
           on Hom e Health Agency Employees, OEI-07-14-00131


In response to a congressional request, the Office oflnspector General (OIG) initiated two
related evaluations regarding home health agencies ' (HHAs) employment of individuals with
criminal convictions. This memorandum report presents the results of the first evaluation,
conducted to (1) identify State background-check requirements for HHAs and (2) identify the
types of criminal convictions that, under State law or regulation, disqualify individuals for
HHA employment. The second evaluation, entitled Home Health Agencies ' Employment of
Individuals With Criminal Convictions (OEI-07-14-00130) , will (1) determine the extent to
which HHAs employed individuals with criminal convictions as of January 1, 2014, and identify
criminal convictions of selected employees that potentially disqualify them for HHA
employment, and (2) identify the procedures that HHAs use to perform background checks on
prospective and/or current employees.

SUMMARY

We surveyed State officials to identify State requirements for conducting background checks for
prospective HHA employees, including the job positions for which States require HHAs to
conduct background checks , and the types of convictions that States consider to be
disqualification for HHA employment. The survey found that, of the 50 States and the
District of Columbia (hereinafter referred to as States), 41 States require HHAs to conduct
background checks on prospective employees . Of the 10 States that have no background-check
requirement, 4 States reported that they have plans to implement background-check requirements
in the future. Of the 41 States that require background checks, 15 States require HHAs to
receive the results of background checks before individuals can begin employment and 26 States
allow individuals to work while the results of their background checks are pending. Fifteen
States require additional background checks of employed individuals subsequent to the initial
checks. Thirty-five States specify convictions that disqualify individuals from employment, and
Page 2 – Marilyn Tavenner


16 States allow an individual who has been disqualified from employment to submit an
application to have his/her conviction(s) waived. The Centers for Medicare & Medicaid Services
(CMS) may wish to use the information from this report as it administers the Nationwide
Background Check Program. The report may also be useful to States that are considering
establishing or enhancing background-check requirements for HHA employees.

BACKGROUND

Medicare Home Health Services
Beneficiaries receiving care from HHAs are especially at risk of mistreatment because
employees are providing services, usually unsupervised, in beneficiaries’ homes. However,
there are no Federal laws or regulations that require HHAs to conduct background checks prior
to hiring individuals or to periodically conduct background checks after an individual has been
hired. In 2012, HHAs provided services to approximately 3.5 million Medicare beneficiaries,
averaging 34 visits per beneficiary. Medicare paid nearly $18.5 billion for HHA services that
year.1

Requirements for Conducting Background Checks
There are no Federal laws or regulations that require HHAs to conduct background checks prior
to hiring individuals, or to periodically conduct background checks after individuals have been
hired.2 There are also no Federal laws or regulations that prohibit HHAs from hiring individuals
who have been convicted of crimes (e.g., assault, rape, and theft) or who have had a finding
concerning abuse, neglect, mistreatment of beneficiaries, or misappropriation of beneficiary
property entered into State-based abuse and neglect registries or databases (such as State nurse
aide registries). However, as a condition of participation in Medicare, HHAs must comply with
State laws.3 State requirements for background checks vary in terms of what sources of
information must be checked, which job positions require background checks, and what types of
convictions prohibit employment.

Types of Background Checks
In general, there are two kinds of background checks that States require HHAs to use: Statewide
and Federal Bureau of Investigation (FBI). Statewide background checks are typically
conducted by a State law enforcement agency (e.g., State Highway Patrol, State Police) and
include information for crimes committed within that State. FBI background checks are also
typically conducted by a State law enforcement agency, which provides identifying information
and a set of fingerprints to the FBI to match against criminal background information maintained
in its database. The FBI database includes information on both Federal crimes and crimes
reported by States.



1
  CMS, 2013 Medicare & Medicaid Statistical Supplement: Table 7.1. Accessed at http://www.cms.gov/Research-
Statistics-Data-and-Systems/Statistics-Trends-and-Reports/MedicareMedicaidStatSupp/Downloads/

2013_Section7.pdf#Table7.1 on April 14, 2014. 

2
  In April 2014, CMS released guidance that it would phase in the implementation of fingerprint-based background

checks for individuals with a 5 percent or greater ownership interest of a HHA newly enrolling in the Medicare 

program. This action is part of the enhanced enrollment screening provisions contained in P.L. No. 111-148 § 6401.

3
  42 CFR 484.12(a).



State Requirements for Conducting Background Checks on HHA Employees (OEI-07-14-00131)
Page 3 – Marilyn Tavenner


Nationwide Background Check Program
The Patient Protection and Affordable Care Act established the Nationwide Program for National
and State Background Checks on Direct Patient Access Employees of Long-Term Care Facilities
and Providers (Nationwide Background Check Program).4 The program awards grant funds to
States that volunteer to conduct background checks on prospective long-term-care employees.
Under the program, potential “direct patient access” employees in any of 10 provider types
(e.g., HHAs) must undergo fingerprint-based Statewide and FBI background checks, as well as
checks of State-based abuse and neglect registries.5 To date, CMS has awarded 25 such grants,
totaling more than $50 million.

METHODOLOGY

We surveyed officials from every State and the District of Columbia. We gathered information
on State requirements for HHAs to conduct background checks on prospective employees and
job positions for which HHAs are required to conduct background checks. We asked whether
HHA employees must undergo periodic background checks after they are hired. We also asked
about the types of convictions that disqualify individuals from employment and whether any of
these convictions can be waived to allow employment. We received survey responses from all
51 States. We did not perform a legal analysis to determine whether the State requirements
reported to us represented all pertinent legal requirements or whether State officials had correctly
described the characteristics of the requirements.

This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

In the Absence of Federal Laws, 41 States Require HHAs To Conduct Background Checks
on Prospective Employees
Forty-one States require HHAs to conduct background checks on prospective employees.6
However, even in the absence of State requirements, HHAs in the remaining 10 States may
choose to conduct background checks on their own initiative. Table 1 shows the type of
background check(s) required and whether the requirement applies to all individuals or only to
certain individuals.




4
  P.L. No. 111-148 § 6201.

5
  P.L. No. 111-148 § 6201(a)(3)(A).

6
  State-reported laws requiring background checks for HHA employees can be found in Appendix A.



State Requirements for Conducting Background Checks on HHA Employees (OEI-07-14-00131)
Page 4 – Marilyn Tavenner

Table 1: HHA Background Check Requirements by State

 Type of Check Required                                                                            State(s)            Number of States


 FBI and Statewide for All Individuals                     DE, DC, FL, ID, IL, MI, MS, NV, NY, OK, UT                               11


 FBI and Statewide for Certain Individuals                                      AK, NE, NM, NC, OH, SC                               6


 Statewide for All Individuals                                  AZ, ME, MD, MA, MO, NH, OR, VA, WI                                   9


 Statewide for All Individuals and FBI
                                                                           AR, CO, IN, KY, MN, PA, WA                                7
 for Certain Individuals


 Statewide for Certain Individuals                                             CA, IA, KS, LA, RI, TX, VT                            7

 Other                                                                                                  TN*                          1

 None                                                      AL, CT, GA, HI**, MT, NJ, ND, SD, WV, WY                                 10


     Total                                                                                                                          51

Source: OIG analysis of State surveys, 2014.

*Note: Tennessee reported that it requires HHAs to perform checks of registries of sex offenses, adult abuse, and elder abuse.
**Note: The Hawaii legislation requires that the State agency adopt rules to mandate background checks on HHA employees; however,
  no implementing rules have been published.



Some States reported differing requirements determined by the individuals’ job duties and/or
length of residency in a State. For example, Ohio requires background checks for those
individuals providing direct care. North Carolina requires checks for individuals who enter
beneficiaries’ homes. If an individual has been a North Carolina resident for more than 5 years,
only a Statewide background check is required. For individuals who have not lived in
North Carolina for at least 5 years, an FBI check is required in addition to the Statewide check.

We asked States whether they verify that HHAs are complying with requirements for
background checks. All 41 States that require background checks responded that they did verify
compliance, most commonly through onsite visits, audits, or certification surveys. For example,
New Hampshire verifies compliance with its background-check requirement by reviewing
personnel records during certification surveys.

Of the 10 States that have no requirement for background checks, 4 States (Connecticut,
Georgia, Hawaii, and West Virginia) reported that they have plans to implement such
requirements in the future. These States have received Nationwide Background Check Program
grants from CMS to establish or improve State programs for background checks of
long-term-care employees.




State Requirements for Conducting Background Checks on HHA Employees (OEI-07-14-00131)
Page 5 – Marilyn Tavenner


Of the 41 States That Require Background Checks, 15 States Require HHAs To Receive
the Results Before Individuals Begin Employment
In 15 States, HHAs must receive the results of background checks prior to allowing an individual
to work. Individuals with convictions that disqualify employment cannot be hired. In the
remaining 26 States, background checks are initiated and individuals are allowed to work while
the results of their background checks are pending. Twenty States allow individuals to work
only for a specified timeframe while a background check is completed. Timeframes ranged from
5 days to 3 months. For example, Indiana requires that the background check be initiated within
3 days of providing care for a client and completed within 21 days of hire. Six States (Kentucky,
Maryland, Michigan, Nevada, New Mexico, and Washington) have no maximum timeframe
during which an individual may work without a completed background check. Specific
characteristics of the background-check requirements for the 41 States can be found in
Appendix B.

Fifteen States Require Additional Background Checks Subsequent to Initial Checks
Twelve States require HHAs to conduct periodic background checks on employed individuals.
The frequency of these checks ranged from annually to every 6 years. An additional three States
(California, Delaware, and New York) reported that State agencies receive automatic
notifications of subsequent arrests, a process commonly referred to as “rap back.” Under rap
back, an individual’s fingerprints are retained by a criminal history repository after the initial
background check. Any criminal convictions occurring subsequent to the initial background
check are proactively reported to the designated agency or employer, eliminating the need to
resubmit an individual’s fingerprints for periodic background checks after he or she has begun
employment.

Thirty-Five States Specify Convictions That Disqualify Individuals From Employment
Thirty-five States have identified specific types of convictions that disqualify individuals from
obtaining employment in HHAs. States differ in regard to what types of convictions disqualify
individuals and how recently they must have occurred to disqualify them. For example,
Wisconsin State statute contains a list of offenses—including homicide, battery, and sexual
assault—that prohibit HHA employment. Minnesota groups its disqualifying convictions into
four categories, by the time that must have elapsed since the discharge of the sentence imposed
before the individual is eligible for HHA employment. These categories are 7 years
(e.g., misdemeanor domestic assault), 10 years (e.g., misdemeanor receiving stolen property),
15 years (e.g., felony robbery), and forever (e.g., kidnapping). Six States (Colorado, Iowa,
Maryland, North Carolina, Tennessee, and Vermont) do not specify convictions that disqualify
individuals from employment.

Sixteen States allow individuals who have been disqualified from employment because of a
conviction the opportunity to submit applications to have the conviction waived. When a waiver
is granted, the hiring restriction is removed and the individual is allowed to be employed. For
example, Missouri’s “Good Cause Waiver” process requires an applicant to provide an
explanation for each arrest that led up to the conviction, a sponsorship letter from a current or
potential employer, employment history, and information related to any pending charges, if
applicable. Waiver applications are reviewed by a panel of health care professionals.




State Requirements for Conducting Background Checks on HHA Employees (OEI-07-14-00131)
Page 6 – Marilyn Tavenner


Seven States allow for any conviction to have the potential to be waived, and nine States allow
only certain kinds of convictions to be waived.

CONCLUSION

The information in this report will be useful to CMS in administering the Nationwide
Background Check Program. The report may also be useful to States that are considering
establishing or enhancing background-check requirements. This report is being issued directly
in final form because it contains no recommendations. If you have comments or questions about
this report, please provide them within 60 days. Please refer to report number OEI-07-14-00131
in all correspondence.




State Requirements for Conducting Background Checks on HHA Employees (OEI-07-14-00131)
 Page 7 – Marilyn Tavenner


 APPENDIX A

 State-Reported Laws and Regulations Requiring Background Checks for Home
 Health Agency Employees
 State                                                                                                                               Citation*


 Alaska                                                                                                                        7 AAC 10.900


 Arizona                                                                                                                       ARS § 36-411


 Arkansas                                                                                                    Arkansas Code § 20-38-103


 California                                                                                 Health & Safety Code §§ 1796.10–1796.63


 Colorado                                                                                                    6 C.C.R. 1011-1, Chapter 26


 Delaware                                                                                                                   16 Del. C. § 1145


 District of Columbia                                                                                            22 DCMR §§ 4700–4799


 Florida                                                                                                      § 400.512, Fla. Stat. (2013)


 Idaho                                                                                                                   IDAPA 16.03.07 § 9


 Illinois                                                                                                                        225 ILCS 46


 Indiana                                                                                                                           IC 16-27-2


 Iowa                                                                                                 Iowa Code 2014, Section 135C.33


 Kansas                                                                                                                       K.S.A. 65-5117


 Kentucky                                                                                                                    902 KAR 20:081


 Louisiana                                                                                                           La. R.S. 40 § 1300.51


 Maine                                                                                                         22 M.R.S.A. §§ 2141–2150


 Maryland                                                                           Annotated Code of Maryland §§ 19-1901–19-1912


 Massachusetts                                                                                                     105 CMR 155.010 G(3)


 Michigan                                                                                                                 MCL § 333.20173a


 Minnesota                                                                                                      Minn. Stat. § 245C (2013)


*For a given State, the listed citations may not include all citations related to background checks for HHA employees.

                                                                                                                         continued on next page




 State Requirements for Conducting Background Checks on HHA Employees (OEI-07-14-00131)
 Page 8 – Marilyn Tavenner


 State-Reported Laws and Regulations Requiring Background Checks for Home
 Health Agency Employees (continued)
 State                                                                                                                             Citation*


 Mississippi                                                                                                  Miss. Code Ann. § 43-11-13


 Missouri                                                                                                          Section 660.317, RSMo


 Nebraska                                                                                                                       175 NAC 14


 Nevada                                                                                                                        NRS 449.123


 New Hampshire                                                                                                                 RSA 151: 2-d


 New Mexico                                                                                                                     7.1.9 NMAC


 New York                                                                                          NY CLS Pub Health § 2899-a (2010)


 North Carolina                                                                                               N.C. Gen. Stat. § 131E-265


 Ohio                                                                                                                     OAC - 3701-60-04


 Oklahoma                                                                                                                   63 O.S. § 1-1947


 Oregon                                                                                                                  OAR 333-027-0064


 Pennsylvania                                                                                                            35 P.S. § 10225.502


 Rhode Island                                                                                                  R.I. Gen. Laws § 23-17-34


 South Carolina                                                                                              S.C. Code Ann. § 44-7-2910


 Tennessee                                                                                           Tenn. Code Ann. § 63-1-116 (2013)


 Texas                                                                                                                          THSC § 250


 Utah                                                                                                Utah Admin. Code r. 432-35 (2014)


 Vermont                                                                                           33 V.S.A. Chapter 63, Subchapter 1A


 Virginia                                                                                                   Va. Code Ann. § 32.1-162.9:1


 Washington                                                                                                               WAC 246-335-065


 Wisconsin                                                                                                                Wis. Stat. § 50.065

*For a given State, the listed citations may not include all citations related to background checks for HHA employees.
Source: State survey responses, 2014.




 State Requirements for Conducting Background Checks on HHA Employees (OEI-07-14-00131)
Page 9 – Marilyn Tavenner


APPENDIX B

State-Reported Characteristics of Background-Check Requirements in the
41 States That Require Such Checks
                                                  Individuals May Work       Additional Background
                           Background Check
                                                  Provisionally Pending         Checks of Employed
State                         Results Must Be
                                                    Background-Check      Individuals Subsequent to
                         Received Prior to Hire
                                                                Results                 Initial Check

Alaska                                       X                                                       X


Arizona                                                              X                               X


Arkansas                                     X                                                       X


California                                   X                                                       X


Colorado                                     X


Delaware                                                             X                               X


District of Columbia                         X                                                       X


Florida                                      X                                                       X


Idaho                                                                X


Illinois                                                             X


Indiana                                                              X


Iowa                                         X


Kansas                                                               X


Kentucky                                                             X


Louisiana                                                            X


Maine                                        X                                                       X


Maryland                                                             X


Massachusetts                                X


Michigan                                                             X                               X


Minnesota                                                            X

                                                                                 continued on next page




State Requirements for Conducting Background Checks on HHA Employees (OEI-07-14-00131)
 Page 10 – Marilyn Tavenner


 State-Reported Characteristics of Background-Check Requirements in the
 41 States That Require Such Checks (continued)
                                                                Individuals May Work       Additional Background
                                          Background Check
                                                                Provisionally Pending         Checks of Employed
 State                             Results Must Be Received
                                                                  Background-Check      Individuals Subsequent to
                                                Prior to Hire
                                                                              Results                 Initial Check

 Mississippi                                                                       X


 Missouri                                                                          X


 Nebraska                                                                          X


 Nevada                                                                            X                             X


 New Hampshire                                             X


 New Mexico                                                                        X


 New York                                                                          X                             X


 North Carolina                                                                    X


 Ohio                                                                              X                             X


 Oklahoma                                                                          X


 Oregon                                                    X                                                     X


 Pennsylvania                                              X


 Rhode Island                                                                      X


 South Carolina                                            X


 Tennessee                                                 X


 Texas                                                                             X                             X


 Utah                                                                              X


 Vermont                                                   X


 Virginia                                                                          X


 Washington                                                                        X


 Wisconsin                                                                         X                             X

Source: OIG analysis of State surveys, 2014.




 State Requirements for Conducting Background Checks on HHA Employees (OEI-07-14-00131)
